Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     Recruiting Human Subjects

      Sample Guidelines for Practice




                     JUNE GIBBS BROWN
                      Inspector General

                          JUNE 2000
                        OEI-01-97-00196
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

REGION                                               HEADQUARTERS

Nancy L. London, Lead Analyst                        Elise Stein, Program Specialist
Laura C. McBride, Lead Analyst




    To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                      EXECUTIVE SUMMARY

PURPOSE

        To identify institutional review board and professional medical association human-subject
        recruitment guidelines that exceed guidelines set forth by the Department of Health and
        Human Services.


BACKGROUND

        In our companion report, Recruiting Human Subjects: Pressures in Industry-Sponsored
        Clinical Research (OEI-01-97-00195), we indicated that the Department of Health and
        Human Services (HHS) guidelines do not address the recruitment practices that IRBs and
        others involved in clinical research find most troubling. In this report, we present other
        sources of guidance for IRBs and investigators, from such entities as professional medical
        associations and IRBs. We also include Canadian guidelines on recruitment practices to
        illustrate how these practices have been addressed by another nation’s research
        community.

        This report focuses on guidance provided by IRBs, medical associations, and Canada on
        recruitment practices not covered in HHS guidelines. Specifically, we focus on guidance
        given by these entities on how three main issues— recruitment incentives, the dual
        investigator-physician role, and the confidentiality of medical records— should be
        handled. These particular issues, as discussed in our companion report, have raised many
        concerns among those involved in clinical research.

Recruitment Incentives

        Recruitment incentives include bonuses that sponsors give to investigators to boost
        enrollment and referral fees given to doctors for referring their patients to another
        investigator’s study. Some IRBs prohibit such incentives, claiming that they pose too
        much of a conflict of interest for investigators. Many professional medical associations,
        including the American Medical Association, prohibit referral fees, branding them
        unethical. Other IRBs and medical associations favor investigator disclosure of incentives
        to potential subjects, allowing the subjects to make their own decisions about the
        significance of the incentives. Finally, Canada promotes a “proportionate approach,” in
        which an IRB determines the severity of a conflict and metes out safeguards accordingly;
        minor conflicts may just need to be disclosed to the subject, whereas large ones may
        require investigators to abandon one of their conflicted interests.




Recruiting Subjects: Guidelines                  1                                  OEI-01-97-00196
Dual Investigator-Physician Role

        When an investigator is also the physician of the subject-patient, the investigator may be
        faced with a conflict between what is best for the subject and what is best for the research
        protocol. Some IRBs and medical associations assert that this potential conflict must be
        disclosed to subjects. One medical association goes so far as to suggest using an
        “uninterested” party to explain the trial to particularly vulnerable subjects. Other medical
        associations state that if such a conflict should arise, it should always be resolved in the
        best interest of the patient.

Confidentiality of Medical Records

        Investigators often search patients’ private medical records to identify and contact
        potential subjects for clinical trials. Some IRBs prohibit investigators from directly
        accessing this confidential information unless it pertains to the investigator’s own patients.
        Professional medical associations do not address this issue explicitly, but do explain the
        appropriate uses of medical information, divulged in confidence between doctor and
        patient.

CONCLUSION

        The guidelines featured in this report have implications for the implementation of the
        recommendations advanced in our companion report.

Toward improved practice and a level playing field

        One of the key recommendations we set forth in our companion report is for HHS to
        provide IRBs with direction regarding oversight of recruitment practices. Specifically, we
        call for HHS to clarify that IRBs have the authority to review certain recruiting practices
        based on existing Federal regulation and to disseminate guidance on what IRBs can
        address in their review of recruitment practices. Although all of the IRB guidelines and
        policies mentioned in this report exceed guidelines specified by Federal oversight agencies,
        these IRB guidelines are the exception rather than the rule. In order to foster a level
        playing field, in which sponsors and investigators adhere to common standards in
        recruiting human subjects, Federal oversight bodies must clarify IRB authority to review
        recruitment practices and provide them with respective guidance.

        A second major recommendation from our companion report is that HHS should facilitate
        discussion and consensus about appropriate human-subject recruiting practices by
        convening forums and sponsoring studies, among other initiatives. The guidelines
        highlighted in this report represent much reflection and deliberation by IRBs, their parent




Recruiting Subjects: Guidelines                   2                                    OEI-01-97-00196
        institutions, professional medical associations, and the Canadian government, on
        recruitment issues. Any future debate or research on appropriate recruitment practices
        ought to draw on these and other existing guidelines.

Comments on the Draft Reports

        We received comments on our two draft reports from the Department of Health and
        Human Services. We also solicited and received comments from the following external
        parties: the Applied Research Ethics National Association, the Consortium of
        Independent Review Boards, Pharmaceutical Research and Manufacturers of America,
        and Public Citizen’s Health Research Group. We include the detailed text of all of these
        comments and our responses to them in our companion report, Recruiting Human
        Subjects: Pressures in Industry-Sponsored Clinical Research. In the executive summary
        of that report, we summarize the thrust of these comments and our responses.




Recruiting Subjects: Guidelines                 3                                  OEI-01-97-00196
                          TABLE OF CONTENTS

                                                                                                                          PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



ADDITIONAL GUIDANCE


          Recruitment Incentives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


          Dual Physician-Investigator Role . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Confidentiality of Medical Records . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15



APPENDICES
    A: Professional Medical Association Guidelines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

    B: Professional Medical Association Sources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

    C: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





Recruiting Subjects: Guidelines                                  4                                               OEI-01-97-00196
                                  INTRODUCTION

PURPOSE

        To identify institutional review board and professional medical association human-subject
        recruitment guidelines that exceed guidelines set forth by the Department of Health and
        Human Services.

BACKGROUND

        In our companion report, Recruiting Human Subjects: Pressures in Industry-Sponsored
        Clinical Research (OEI-01-97-00195), we presented concerns that sponsors,
        investigators, and IRBs expressed about current practices used to recruit human subjects.1
        In that report, we found that most of the concerns fit into three broad categories: the
        erosion of informed consent, the compromise of patient confidentiality, and enrolling
        ineligible subjects. We also noted that many of these concerns are not addressed in
        guidelines offered by the Food and Drug Administration (FDA) or the National Institutes
        of Health (NIH), through its Office for the Protection from Research Risks (OPRR).

        In fact, we found that the FDA and OPRR guidelines fail to address many of the
        recruitment practices that IRBs and others involved in clinical research find most
        troubling. Thus, we set out in this report to find other sources of guidance available to
        IRBs and investigators. We found that several other entities, such as IRBs and
        professional medical associations, do provide such guidance. We include examples of
        these guidelines in this report. We also include guidelines from a collaboration among
        three Canadian medical research funding agencies, the Tri-Council Policy Statement on
        Ethical Conduct for Research Involving Humans, to illustrate how these recruitment
        issues have been addressed by another nation’s research community.2

        This report focuses on guidance provided by IRBs and medical associations on
        recruitment practices not covered in HHS guidelines. Specifically, we focus on guidance
        given by these entities on three main issues: recruitment incentives, the dual investigator-
        physician role, and the confidentiality of medical records. These three issues parallel the
        main recruitment strategies set forth in our companion report: offering incentives,
        targeting one’s own patients, and seeking additional patient bases. We have chosen not to
        highlight guidelines on the fourth recruitment strategy, advertising. Although many IRBs
        and professional medical associations have their own guidelines on advertisements and
        subject incentives, there are explicit HHS guidelines for those methods.




Recruiting Subjects: Guidelines                  5                                    OEI-01-97-00196
Institutional Review Boards

        In our companion report, we explain that many IRBs are uncertain of their authority to
        review certain recruitment practices, particularly those that take place apart from the
        investigator-subject interaction. The IRBs whose guidelines and policies are featured in
        this report have proceeded with the assumption that they have this authority. In fact,
        many are taking strong stances on some recruitment issues. These IRB or institutional
        guidelines serve the dual purpose of assisting IRB members when reviewing protocols and
        guiding investigators as they consider how they will recruit subjects (or how to handle
        sponsor incentives for boosting enrollment). The guidance falls along a continuum, from
        merely raising awareness of potential problems associated with a particular recruitment
        practice to forbidding certain practices.

Professional Medical Associations

        Professional medical associations are another source of guidance regarding ethical conduct
        of clinical research for both investigators and IRBs,. Guidance from professional
        associations may not be an obvious resource to those involved in research, but this
        guidance is, in fact, quite rich and may be gaining in importance.3 According to a recent
        article on professional medical associations in the Journal of the American Medical
        Association, “the time is propitious for the medical profession to act responsibly to
        reaffirm the ethical commitment that grounds physicians’ authenticity. Only then can
        physicians justify the claim to the moral integrity that patients expect.”4

        Professional medical association guidance contrasts with IRB and Federal guidance in that
        it emanates from physicians, who are often themselves investigators. Therefore, this
        guidance can be seen as a reflection of physicians’ own concerns as well as a form of self-
        monitoring. The American College of Physicians states that, “although the responsibility
        for assuring reasonable protection of human research participants resides with the
        investigators and the local institutional review board, the medical profession as a whole
        also has responsibilities. Clinical investigation is fraught with opportunities for conflicts to
        arise.”5

        Many medical associations have set forth ethical guidelines relating to clinical research.
        Others have ethical guidelines that relate to general professional conduct, but which could
        be extrapolated to clinical research. Although many associations have valuable guidance
        on many aspects of clinical research, we have limited this report to examples focused on
        recruitment practices. See appendix A for a chart summarizing subject recruitment
        guidelines mentioned by the 20 professional medical associations covered in this report.
        See appendix B for a full listing of our sources of these guidelines.




Recruiting Subjects: Guidelines                    6                                     OEI-01-97-00196
Methodology

        As part of our survey of 200 IRBs, we requested any institutional or IRB guidelines on
        recruitment issues to which IRBs adhere. We obtained other IRB guidelines during site
        visits and conversations with IRB representatives. From these, we culled recruitment
        guidelines that exceeded the scope of Federal guidelines. In addition, we gathered codes
        of ethics, guidelines, and position papers relevant to subject recruitment from 20
        professional medical associations. We selected these medical associations as a sample of
        the major medical associations; it is not a comprehensive selection. We also thoroughly
        reviewed the Canadian Tri-Council Policy Statement on Ethical Conduct for Research
        Involving Humans.

        These guidelines do not necessarily represent the best or most suitable response to
        concerns raised in our other report. Rather, they serve as reference points. These
        guidelines are intended to stimulate discussion and debate among Federal policymakers,
        IRBs, sponsors, and investigators over what constitutes appropriate recruitment practices
        and how to develop guidelines that ensure that appropriate practices are followed. We did
        not independently evaluate any of the guidelines highlighted in this report. A guideline’s
        inclusion does not mean that it receives our approval, or that it is being used only at the
        institution that we highlighted. While we have highlighted many guidelines, we may have
        omitted some useful ones.

        We conducted this inspection in accordance with the Quality Standards for Inspections
        issued by the President’s Council on Integrity and Efficiency.




Recruiting Subjects: Guidelines                  7                                  OEI-01-97-00196
                                   Recruitment Incentives


ISSUE

        Sponsors often offer investigators or their staff incentives to boost subject enrollment.
        Some of these incentives may be financial, often in the form of a bonus payment per
        additional subject enrolled. Other incentives include, but are not limited to: granting the
        investigator authorship on a paper about the study; supplying the research site with office
        or medical equipment; and offering educational gifts, such as books or conference
        attendance to research staff.

        People involved in clinical research have raised concerns that such incentives could
        prompt investigators to distort information that they provide to potential subjects during
        the consent process or pressure potential subjects to enroll in a trial. Some fear that these
        incentives could cause investigators to stretch eligibility criteria to enroll a potential
        subject. Finally, some are concerned about whether potential subjects can truly make
        informed choices about participating in trials without knowing how, and to what extent,
        investigators are being rewarded for their participation.

GUIDELINES

On the appropriateness of incentives

        IRBs. The University of Rochester prohibits bonus payments to investigators and
        research administrators that are intended to encourage subject recruitment, saying:

                Bonus payments for subject recruitment may compromise the integrity of that study
                by giving an appearance of affecting the judgment of the investigator/research team
                and in some cases may violate regulations and institutional policies.6

        However, the institution does permit additional, per-subject payments made to
        investigators if these payments cover additional expenses incurred by the investigator to
        accelerate enrollment (e.g., for additional advertisements).

        Partners Healthcare System, Inc., which is comprised of Massachusetts General Hospital
        and Brigham and Women’s Hospital, prohibits finder’s fees given to a physician for
        referring a potential subject to an investigator. It also prohibits financial incentives given
        to investigators to accelerate enrollment. It claims that both of these practices pose a
        conflict of interest.




Recruiting Subjects: Guidelines                          8                                            OEI-01-97-00196
        St. Vincent Mercy Medical Center IRB assesses all additional payments given to
        investigators during the course of a trial to determine whether these payments reflect
        “reasonable payment for bona fide services performed.”7 If the Board finds that the
        additional payments fail to meet this criteria, but rather, these payments are merely for
        enrolling subjects, the Board will not allow them.

        Medical Associations. Many medical associations also provide guidance on financial
        incentives to investigators. The American Medical Association asserts that “offering or
        accepting payment for referring patients to research studies (finder’s fees) is unethical.”8
        Similarly, the American College of Physicians asserts that these finder’s fees “generate an
        unethical conflict of interest.”9 In addition, five other medical associations (see Appendix
        A) note that fees paid to doctors for referring patients to another physician are unethical;
        one could interpret this warning to apply to clinical research, in addition to general
        medical practice.

        The American Academy of Orthopaedic Surgeons and the American Academy of
        Pediatrics both warn investigators against accepting unreasonable compensation for
        conducting a trial. The American Academy of Pediatrics states that, “it is important to
        avoid undue rewards to health care providers that may constitute an undue incentive for
        coercing patients to participate in a study.”10 Finally, the American Academy of
        Ophthalmology and the American College of Physicians recommend using the British
        Royal College of Physicians guideline for determining the appropriateness of a financial
        arrangement; that is, “would I be willing to have these arrangements generally known?”

Disclosure

        IRBs. UCLA, as a result of a recent legal case, requires that a physician “disclose
        personal interest unrelated to the patient’s health, whether research or economic, that may
        affect the physician’s professional judgment,” or risk legal action taken on behalf of the
        subject for “performing medical procedures without consent or breach of
        confidentiality.”11

        Partners Healthcare System, Inc., requires “full disclosure of any financial arrangements
        that may encourage physicians to recruit patients for research participation that may not be
        in their best interests.”12

        Medical Associations. The American College of Emergency Physicians advises that
        investigators disclose to subjects payments from the biomedical industry, while the
        American Psychiatric Association suggests that investigators disclose the funding source
        to subjects. Six other associations have guidelines for physicians’ disclosure to patients of
        financial interests in general commercial ventures, if they seem to pose conflicts of interest.
        One could infer from these guidelines that financial conflicts of interest in clinical research
        should be disclosed to potential subjects as well.


Recruiting Subjects: Guidelines                   9                                     OEI-01-97-00196
        Canada. An entire section of the Canadian Tri-Council Policy Statement on Ethical
        Conduct for Research Involving Humans is devoted to conflict of interest issues.13 In this
        section, it states that researchers hold trust relationships with research subjects and that
        these trust relationships “can be put at risk by conflicts of interest that may compromise
        independence, objectivity or ethical duties of loyalty.” The policy asserts that, though
        these potential conflicts are not new, “pressures to commercialize research have led to
        increased concerns.” The policy proposes IRB guidelines for “actual, perceived and
        potential” conflicts of interest, which include investigator incentives. It recommends that
        IRBs take a “proportionate approach” to reviewing conflicts of interest. If the IRB
        perceives a potential conflict to be relatively small, then the IRB should merely require the
        investigator to disclose this conflict. However, if the IRB perceives a potential conflict to
        be large, then the IRB should require the investigator to abandon one of the interests in
        conflict, either by withdrawing from the research or authorizing someone else to make
        certain decisions about the research.




Recruiting Subjects: Guidelines                  10                                    OEI-01-97-00196
                           Dual Investigator-Physician Role


ISSUE

        Many investigators recruit subjects from their own patient populations. In such scenarios,
        the physician-investigator must both consider the best interest of the patient-subject and
        remain objective in order to foster scientific advancement and discovery. One of the main
        concerns raised about this practice is that the distinction between physician and
        investigator will be blurred, as will the distinction between patient and subject. Patient-
        subjects may become confused as to whether they are involved in therapy or research.

GUIDELINES

Acknowledging and separating the dual roles

        IRBs. UCLA recognizes the potential conflict of interest that faces an investigator who is
        also the physician of the subject-patient. Thus, the University requires that investigators in
        this situation disclose their possible conflicts to subjects at the top of the informed consent
        form, using the following wording:

              Your health care provider may be an investigator of this research protocol, and as an
              investigator, is interested both in your clinical welfare and in the conduct of this
              study. Before entering this study or at any time during the research, you may ask for
              a second opinion about your care from another doctor who is in no way associated
              with this project. You are not under any obligation to participate in any research
              project offered by your doctor.14

        In some cases, the UCLA IRB may discourage investigators from directly approaching
        their patients. Instead, the Board will suggest that the investigator place information
        about a trial in the waiting room and wait to be approached by the patient about
        participating.

        Medical Associations. The American Academy of Neurology clearly acknowledges the
        threat that the doctor-patient relationship may pose on the objectivity of the consent
        process. The Academy suggests precautions that IRBs and researchers may want to take
        to mitigate this threat when trying to recruit particularly vulnerable subjects, such as
        people with severe, progressive or terminal neurological illnesses:




Recruiting Subjects: Guidelines                         11                                            OEI-01-97-00196
              Experienced physicians and researchers know that some patients will accede, on the
              basis of trust, to just about any medical requests their physicians make. Therefore,
              particular problems may arise when the researcher has a long-standing doctor-patient
              relationship with a person who also enrolls in his or her research protocol. Physicians
              and researchers must be vigilant about their relationships with these patients/subjects
              because the distinction between standard medical care and experimental treatment
              may become blurred. In such cases, researchers and IRBs may want to consider
              additional safeguards. For example, the IRB may request that an ‘uninterested’
              individual, such as a clinical neurologist not involved in the research, discuss with
              prospective subjects the research study and other clinical or research alternatives.15


        Both the American College of Physicians and the American Medical Association
        recommend that physician-investigators handle their dual role by always placing the health
        and welfare of their patients first, before their value as study subjects.

        Canada. The Canadian Tri-Council Policy directs physician-investigators to disclose their
        dual roles to potential subjects, stating that:

              [Researchers have] relevant ethical duties that govern potential or actual conflicts of
              interest, as they relate to the free and informed consent of subjects. To preserve and
              not abuse the trust on which many professional relations reside, researchers should
              separate their roles as therapists...If a researcher is acting in dual roles, this fact must
              always be disclosed to the subject. Researchers should disassociate their role as
              researcher from other roles, in the recruitment process and throughout the project.16




Recruiting Subjects: Guidelines                             12                                               OEI-01-97-00196
                          Confidentiality of Medical Records


ISSUE

        Investigators and their staff may use patient medical records to identify potential subjects
        for clinical trials and then may contact these patients to inquire about their interest in
        participation. Sometimes other researchers who are not the patients’ physician will have
        access to these same patient databases and may use them for the same recruitment
        purposes.

        Concerns relate to how private medical information, divulged in confidence by patients to
        their physician, ought to be used. Specifically, people question whether using this
        information for purposes other than treating or diagnosing, or transmitting this information
        to a third party, constitutes a breach of confidentiality.

GUIDELINES

        IRBs. Some IRBs have guidelines about accessing confidential medical information
        through a physician’s or hospital’s database. Others have guidelines for investigators’ use
        of information to contact potential subjects.

        The Medical College of Ohio states that:

              Review of departmental log books, medical charts, and databases for potential subjects
              is not an acceptable practice prior to IRB review and approval...Persons with access
              to patient names and diagnoses should not, nor should they be asked to, provide such
              lists for an investigator to use to contact potential participants who could view such
              an unexpected communication to be an invasion of privacy and a breach of doctor-
              patient confidentiality...If an investigator plans to recruit subjects that are not his own
              patients or not from his department’s clinic(s), s/he should enlist the assistance of
              potential participants’ own physicians to introduce the study. 17


        UCLA emphasizes that investigators must take care to ensure the confidentiality and
        privacy of potential research subjects when identifying eligible subjects for their research:

              In order to avoid a breach of the potential subject’s privacy, investigators should not
              ask institutions, or their employees, such as physicians or case workers to directly
              identify potential subjects for a research study. Instead, an investigator should ask the
              physican, case worker, etc., to first approach potential subjects (or their
              parent/guardian, as appropriate).18




Recruiting Subjects: Guidelines                            13                                               OEI-01-97-00196
        Likewise, Partners HealthCare System, Inc. and the University of Rochester also prohibit
        anyone who lacks legitimate access to the potential subjects’ private medical records,
        generally the primary care-giver, from contacting these subjects for recruitment purposes.

        The University of Washington recommends that when investigators lack legitimate access
        to private medical records that they use a neutral “intermediary” whose sole job is to ask
        the potential subject whether the subject’s name and contact information could be released
        to the investigator. The investigator would then be allowed to contact the subject directly.

        If an investigator intends to use private medical records to find potential subjects for a
        study, the Mobile Infirmary Medical Center instructs its IRB to ascertain whether the
        investigator is allowed access to the records by the institution or the physician. Once the
        permissibility of the investigator’s access is determined, the investigator must accept
        responsibility for protecting the potential subjects’ privacy.

        Medical Associations. No medical associations in our sample have guidelines specifically
        relating to the use of medical records for identifying and contacting research subjects.
        However, many have guidelines regarding how private medical information should be
        used, and indicate that all other uses are impermissible unless specifically agreed upon by
        the patient. For example, the American Academy of Family Physicians states that:

              Historically, the privileged nature of communications between physician and patient
              has been a safeguard for the patient’s personal privacy and constitutional rights.
              However, new forces in the medical marketplace, including the proliferation of
              electronically linked data bases and a growing demand for health care data of all types
              by...academic and commercial researchers...are encroaching upon that
              relationship...No physician should disclose in individually identifiable form any
              information about the individual without the individual’s explicit authorization.19


        Similarly, the American Medical Association maintains that:

              Patients divulge information to their physicians only for purposes of diagnosis and
              treatment. If other uses are to be made of the information, patients must give their
              permission after being fully informed about the purpose of such disclosures. If
              permission is not obtained, physicians violate patient confidentiality by sharing
              specific and intimate information from patients’ records with commercial interests.20




Recruiting Subjects: Guidelines                        14                                               OEI-01-97-00196
                                  CONCLUSION

        The additional guidelines featured in this report provide further evidence of the
        pervasiveness of concerns about certain recruitment practices among both IRBs and
        professional medical associations. More importantly, these guidelines have implications
        for implementing the recommendations advanced in our companion report.

Toward improved practice and a level playing field

        One of the key recommendations we set forth in our companion report is for HHS to
        provide IRBs with direction regarding oversight of recruitment practices. Specifically, we
        call for HHS to clarify that IRBs have the authority to review certain recruiting practices
        based on existing Federal regulation and to disseminate guidance on what IRBs can
        address in their review of recruitment practices. All of the IRB guidelines and policies
        mentioned in this report exceed guidelines specified by Federal oversight agencies. These
        IRB guidelines indicate that some IRBs believe that recruitment practices raise enough
        concern to warrant a more rigorous review than called for by Federal guidelines. Yet,
        these IRBs, according to data from our IRB survey mentioned in the companion report,
        are the exception rather than the rule. In order to foster a level playing field, in which
        sponsors and investigators adhere to a common standard in recruiting human subjects,
        Federal oversight bodies must clarify IRB authority to review recruitment practices and
        provide appropriate guidance. Otherwise, only the exceptional IRB is likely to add this
        extra layer to their standard protocol review, as it may be to their competitive
        disadvantage to do so.

        A second major recommendation that we make in our companion report is that HHS
        should facilitate discussion and consensus about appropriate human-subject recruiting
        practices by convening forums and sponsoring studies, among other initiatives. The
        guidelines highlighted in this report represent much reflection and deliberation by IRBs,
        their parent institutions, professional medical associations, and the Canadian government
        on recruitment issues. Any future debate or research on appropriate recruitment practices
        ought to draw on these and other existing guidelines, including any incidents that led to
        the guidelines’ creation and the discussions that preceded their adoption. These
        guidelines, and the debate that led to them, represent a rich source of material that should
        be tapped by Federal bodies in exploring recruitment issues.




Recruiting Subjects: Guidelines                  15                                   OEI-01-97-00196
                                                                                                                                                                                                              APPENDIX A


             Professional Medical Association Guidelines

        The following chart indicates which medical associations have such guidelines or codes of
        ethics. Guidelines that specifically pertain to clinical trials are denoted by a U.
        Associations that have general medical practice guidelines or codes of ethics that could
        have implications for clinical research are denoted by a k.

                                                                                                                   Dua
                                                                                                                                                      Confidential                        Other
                                                  Incentives                                                        l
                                                                                                                                                       Records                           Guidance
                                                                                                                   Role




                                                                                                                   dual investigator-physician role
                                                                              Compensation to investigators
                                                                              for conducting clinical trial




                                                                                                                                                          potential subjects
                                                                                                                                                          for identifying /contacting
                                                                                                                                                          Use of medical records
                                                  financial arrangements
                                                  disclosure to subjects of




                                                                                                                                                                                        payment to subjects
                                                                                                                                                                                        Advertisement/




                                                                                                                                                                                                                               guidance
                                                                                                                                                                                                                               also defers to other
                                  referral fees




                                                                                                                                                                                                              news briefs
 American Academy of Allergy,
 Asthma and Immunology

 American Academy of Family       k                                                                                                                   k
 Physicians

 American Academy of                                                                                            U
 Neurology

 American Academy of                              k                           k
 Ophthalmology

 American Academy of                              k                           U                                                                                                                                             AMA Code
 Orthopaedic Surgeons                                                                                                                                                                                                       of Ethics

 American Academy of                                                          U                                                                                                         U
 Pediatrics

 American Academy of              k                                                                                                                                                                                         Nuremberg
 Physical Medicine and                                                                                                                                                                                                      laws
 Rehabilitation

 American Association of                                                                                                                              k
 Neurological Surgeons




Recruiting Subjects: Guidelines                                                                               16                                                                                                             OEI-01-97-00196
                                                                                                                                                                                                              APPENDIX A


                                                                                                                   Dua
                                                                                                                                                      Confidential                        Other
                                                  Incentives                                                        l
                                                                                                                                                       Records                           Guidance
                                                                                                                   Role




                                                                                                                   dual investigator-physician role
                                                                              Compensation to investigators
                                                                              for conducting clinical trial




                                                                                                                                                          potential subjects
                                                                                                                                                          for identifying /contacting
                                                                                                                                                          Use of medical records
                                                  financial arrangements
                                                  disclosure to subjects of




                                                                                                                                                                                        payment to subjects
                                                                                                                                                                                        Advertisement/




                                                                                                                                                                                                                               guidance
                                                                                                                                                                                                                               also defers to other
                                  referral fees




                                                                                                                                                                                                              news briefs
 American College of                              U                                                                                                                                                                         Declaration
 Emergency Physicians                                                                                                                                                                                                       of Helsinki

 American College of                              k
 Obstetricians and
 Gynecologists

 American College of              U                                           k                                 U                                     k                                                        U
 Physicians

 American College of                              k
 Radiology

 American College of Surgeons     k               k

 American Geriatrics Society

 American Medical Association     U                                                                                                                   k                                                        U

 American Women’s Medical
 Association

 American Pharmaceutical
 Association

 American Psychiatric             k               U                                                                                                   k                                                                     AMA Code
 Association                                                                                                                                                                                                                of Ethics

 American Society of                                                                                                                                  k                                                                     AMA Code
 Anesthesiologists                                                                                                                                                                                                          of Ethics

 American Society of Plastic      k               k
 and Reconstructive Surgeons

 National Medical Association




Recruiting Subjects: Guidelines                                                                               17                                                                                                             OEI-01-97-00196
                                                                                APPENDIX B


                  Professional Medical Association Sources


1. American Academy of Allergy, Asthma, & Immunology

Code of Ethics, adopted March 1998. [http://www.aaaai.org/members/codeofethics.stm, accessed December

1999].

And, Physician Reference Materials: Position Statement 14, “Unproven Procedures for Diagnosis

and Treatment of Allergic and Immunologic Diseases, Reviewed,” 1992.

[http://www.aaaai.org/professional/reference/positionstatements/ps14.stm, accessed December 1999]


2. American Academy of Family Physicians

Compendium of AAFP Positions on Selected Health Issues, “Fees,” “Confidentiality,” and

“Proprietary Practices.” [http://www.aafp.org/policy, accessed December 1999]


3. American Academy of Neurology

Ethics Subcommittee of the American Academy of Neurology, “Position Statement: Ethical

Issues in Clinical Research in Neurology,” Neurology, March 1998; 50:592-595. 


4. American Academy of Ophthalmology

Code of Ethics, Revised 1995, and Advisory Opinion of the Code of Ethics, “Disclosures of

Professionally Related Commercial Interests,” approved June 1990, reaffirmed April 1998.


5. American Academy of Orthopaedic Surgeons

Code of Ethics for Orthopaedic Surgeons, adopted October 1988, amended December 1995.


6. American Academy of Pediatrics

“Policy Statement: Guidelines for the Ethical Conduct of Studies to Evaluate Drugs in Pediatric

Populations,” 1995; 95(2): 286-294.


7. American Academy of Physical Medicine and Rehabilitation

American Academy of Physical Medicine and Rehabilitation, Code of Conduct, November 1995.


8. American Association of Neurological Surgeons,

American Association of Neurological Surgeons, Code of Ethics.


9. American College of Emergency Physicians

“Policy Statement: Code of Ethics for Emergency Physicians,” June 1997, and “Policy

Statement: Gifts to Emergency Physicians from the Biomedical Industry,” reaffirmed March 1997.





Recruiting Subjects: Guidelines                  18                                    OEI-01-97-00196
                                                                                     APPENDIX B

10. American College of Obstetricians and Gynecologists

Code of Professional Ethics of the American College of Obstetricians and Gynecologists,

approved 1997.


11. American College of Physicians

Annals of Internal Medicine Position Paper-- Ethics Manual, 4th edition, April 1999.

[http://www.acponline.org/journals/annals/01apr98/ethicman.html, accessed December 1999]


12. American College of Radiology

Code of Ethics, approved Sept. 1998. [http://www.acr.org/f-appcrit.html, accessed December 1999]


13. American College of Surgeons

Statements on Principles, 1996-98. [http://www.facs.org/fellows_info/statements/stonprin.html, accessed

December 1999]


14. American Geriatrics Society

Position Statement: “Research and Geriatric Medicine,” revised May 1999, and “Informed

Consent on Human Subjects with Dementia,” approved May 1998.


15. American Medical Association

Current Opinions of the Council on Ethical and Judicial Affairs, A-99 Edition.


16. American Medical Women’s Association

Principles of Ethical Conduct, approved 1990. 

[http://www.amwa-doc.org/publications/Position_Papers/ethicalconduct.htm, accessed December 1999]

And, Resolution: “Research,” adopted 1990, 1995, 1997. 

[http://amwa-doc.org/publications/Resolutions/research.htm, accessed December 1999]


17. American Psychiatric Association

The Principles of Medical Ethics with Annotations Especially Applicable to Psychiatry (and

Addendums), 1998 Edition.

“Guidelines for Assessing the Decisionmaking Capacities of Potential Research Subjects with

Cognitive Impairment,” 1997.


18. American Society of Anesthesiologists

“Guidelines for the Ethical Practice of Anesthesiology,” amended October 1997.

[http://www.asahq.org/standards, accessed December 1999]





Recruiting Subjects: Guidelines                     19                                      OEI-01-97-00196
                                                                           APPENDIX B

19. American Society of Plastic and Reconstructive Surgeons

Code of Ethics for the American Society of Plastic and Reconstructive Surgeons, 1998. 

[http://www.plasticsurgery.org/profinfo/resource, accessed December 1999]


20. National Medical Association 

NMA Policy Database, “Pharmacogenetics in Drug Development,” amended 1988, “Black

Investigators in Clinical Trials,” approved 1990, “Pharmaceutical Research,” approved 1990, and 

“Revision of the Food and Drug Administration’s (FDA) Current Informed Consent Regulations,”

1995. [http://nmanet.org/hq/reference/policies.asp, accessed December 1999]





Recruiting Subjects: Guidelines               20                                  OEI-01-97-00196
                                                                                     APPENDIX C


                                             Endnotes

1. Department of Health and Human Services, Office of Inspector General, Recruiting Human

Subjects: Pressures in Industry-Sponsored Clinical Research, OEI-01-97-00195, June 2000.


2. Medical Research Council of Canada, Natural Sciences and Engineering Research Council of

Canada, Social Sciences and Humanities Research Council of Canada, Tri-Council Policy

Statement--Ethical Conduct for Research Involving Humans, Public Works and Government

Services Canada, 1998. 

The three Canadian councils that co-authored the Tri-Council Policy Statement are the three

major Federal agencies responsible for funding Canadian medical research. Funding from these

agencies is contingent upon recipients’ compliance with the Policy. 


3. The American Medical Association’s Council on Ethical and Judicial Affairs focused on many

of the issues discussed in this report in its most recent bi-annual discussion of emerging ethical

issues in the medical profession. Specifically, it raised concerns about financial incentives given to

investigators and about the dual doctor/investigator role. V. Foubister, “Clinical Trial Pay

Troubling Topic at CEJA Forum,” AMA News, 27 December 1999; 42(48): 8-9.


4. Pelligrino, E.D. and Relman, A.S., “Professional Medical Associations--Ethical and Practical

Guidelines,” Journal of the American Medical Association,1999;282(10):984.


5. American College of Physician, “Research--Clinical investigation,” Annals of Internal

Medicine Position Paper--Ethics Manual, 4th edition.
[http:www.acponline.org/journals/annals/01apr98/ethicman.html, accessed September 1999]

6. University of Rochester Research Subjects Review Board, “Incentive Payments in Clinical
Trial Agreements--ORPA Internal Policy and Practice.”

7. St. Vincent Mercy Medical Center (Toledo, OH), “Position Statement Regarding Additional
Payments for Ongoing Clinical Trials.”

8. American Medical Association, “Fee Splitting: Referrals to Health Care Facilities,” Current
Opinions of the Council on Ethical and Judicial Affairs, E-6.03, A-99 Edition.

The AMA’s prohibition of finder’s fees in clinical research extends beyond its own membership,
as many other entities require physicians to follow AMA’s code of ethics in its entirety. For
example, under Ohio state law, violation of the AMA Code of Ethics can be grounds for
physicians losing their licensure. Ohio Revised Code Annotated: Occupations--Physicians;
Limited Practitioners, ch. 4731, sec.22 (1998).



Recruiting Subjects: Guidelines                     21                                    OEI-01-97-00196
                                                                                             APPENDIX C

9. American College of Physicians, “Research--Clinical investigation,” Annals of Internal
Medicine Position Paper--Ethics Manual, 4th edition.
[http: www.acponline.org/journals/annals/01apr98/ethicman.html, accessed September 1999]

10. American Academy of Pediatrics, “Specific Aspects of Protocol Design: Recruitment,”
Policy Statement: Guidelines for the Ethical Conduct of Studies to Evaluate Drugs in Pediatric
Populations 1995; 95(2).

11. Moore v. the Regents of the University of California, 51 Cal. 3d 120; P.2d 479. This case
involved a patient (Moore) suing his physician for using his cell line, without his permission, to
create a lucrative commercial product. The discussion from that case states:

         ...a physician who treats a patient in whom he also has a research interest has potentially conflicting
        loyalties. This is because medical treatment decisions are made on the basis of proportionality--weighing
        the benefits to the patient against the risks to the patient...A physician who adds his own research interests
        to this balance may be tempted to order a scientifically useful procedure or test that offers marginal, or no,
        benefits to the patient. The possibility that an interest extraneous to the patient’s health has affected the
        physicians judgment is something that a reasonable patient would want to know in deciding whether to
        consent to a proposed course of treatment. It is material to the patient’s decision and, thus, a prerequisite
        for informed consent.

12. Partners HealthCare System, Inc., “Incentives and Rewards for Recruitment of Patients and
Referral to Clinical Investigators,” Partners Human Research Committee Policies and
Procedures: Recruitment of Research Subjects, prepared April 7, 1999, p.3.

13. Medical Research Council of Canada, Natural Sciences and Engineering Research Council of
Canada, Social Sciences and Humanities Research Council of Canada. “Conflict of Interest,” Tri-
Council Policy Statement--Ethical Conduct for Research Involving Humans, Section 4, Public
Works and Government Services Canada, 1998.

14. Memorandum from the University of California-Los Angeles Executive Vice Chancellor,
“Disclosure of Possible Conflict of Interest to Human Research Subjects,” April 20, 1999.

15. Ethics Subcommittee of the American Academy of Neurology, “Position Statement: Ethical
Issues in Clinical Research in Neurology,” Neurology 1998; 50:594.

16. Medical Research Council of Canada, Natural Sciences and Engineering Research Council of
Canada, Social Sciences and Humanities Research Council of Canada. “Conflict of Interest,” Tri-
Council Policy Statement--Ethical Conduct for Research Involving Humans, Section 4, Public
Works and Government Services Canada, 1998, p.2.8.

17. Medical College of Ohio Research Office, “Study Subject Recruitment.”



Recruiting Subjects: Guidelines                         22                                          OEI-01-97-00196
                                                                            APPENDIX C

18. University of California-Los Angeles, “Selection and Recruitment of Subjects,” Investigator’s
Manual for the Protection of Human Subjects 1997, p.6-3.

19. American Academy of Family Physicians, “Confidentiality, Patient/Physician,” Compendium
of AAFP Positions on Selected Health Issues.
[http://www.aafp.org/policy/17.html, accessed September 1999]

20. American Medical Association. “Disclosure of Records to Data Collection Companies,”
Current Opinions of the Council on Ethical and Judicial Affairs, Section E-5.075, A-99 Edition.




Recruiting Subjects: Guidelines                      23                            OEI-01-97-00196
